                 U.S. Department of Energy
                 Office of Inspector General
                 Office of Audits and Inspections




AUDIT REPORT
The Department of Energy's Water Power
Program




 OAS-M-14-07                        June 2014
                                 Department of Energy
                                    Washington, DC 20585

                                          June 26, 2014


MEMORANDUM FOR THE ASSISTANT SECRETARY FOR ENERGY EFFICIENCY
               AND RENEWABLE ENERGY



FROM:                    George W. Collard
                         Assistant Inspector General
                            for Audits
                         Office of Inspector General

SUBJECT:                 INFORMATION: Audit Report on "The Department of Energy's
                         Water Power Program"

BACKGROUND

The Department of Energy (Department), Office of Energy Efficiency and Renewable Energy's
(EERE) Water Power Program promotes the development of innovative technologies capable of
generating cost-effective, renewable electricity from water resources. These include marine and
hydrokinetic technologies that harness energy from waves, tides and currents, and conventional
hydropower, which generates power from dams and diversion structures. Hydropower produces
the largest share of renewable energy by providing 7 percent of our Nation's electricity. The
Program's long-term goal is to supply 15 percent of our electricity needs from water power by
2030.

To accomplish its goals, the Program provides financial assistance awards for research,
development, demonstration and deployment activities. From June 2008 to January 2013, the
Program provided 105 financial assistance awards totaling $157 million. The awards ranged
from $56,000 to almost $13 million and were given to more than 70 recipients, including
universities, marine engineering firms, and public utility companies. Seven of these recipients
received a total of $30.6 million in funding from the American Recovery and Reinvestment Act of
2009 for improvements to conventional hydropower facilities.

Given the significant role of the Program in supporting initiatives for energy independence,
environmental protection, and climate change, we initiated this audit to determine whether the
Department was efficiently and effectively managing the Program.

RESULTS OF AUDIT

We found that the Program had generally implemented controls designed to help enhance its
project management practices by establishing short-term goals, monitoring its recipients on a
regular basis, and in some cases, requiring recipients to submit cost documentation prior to being
reimbursed. However, we identified several opportunities to improve the economy and
efficiency of the Program. Specifically:

   •   For-profit recipients had not completed and submitted compliance audits as required by
       Federal regulations (10 CFR 600.316). The Department required the audits to determine
       whether recipients had internal controls in place to provide reasonable assurance of
       compliance with Federal regulations and the terms and conditions of the financial
       assistance awards. However, 8 of 15 for-profit recipients had not completed and
       submitted the audits as required. This occurred because the Program did not have a
       process in place to identify the for-profit recipients that expended $500,000 or more in
       Department funds in a fiscal year, the threshold for completing compliance audits.

   •   Payment restrictions were not put in place to address weaknesses identified in an
       accounting system audit at one recipient. Specifically, the Program did not modify the
       terms and conditions of the recipient's previously negotiated awards despite the results of
       an audit that indicated significant problems with the recipient's accounting system, such
       as its inability to identify and separate unallowable costs. We noted that the Program did
       not have a process in place to modify the payment terms and conditions of previously
       negotiated awards when accounting system weaknesses were subsequently identified
       after a more recent award was made.

Additionally, in some instances we found that the Program had not ensured recipients managed
project funds in accordance with Federal regulations and/or the terms and conditions of their
awards. For example, although prohibited by regulation, recipients maintained funds in excess
of needs, in part, because the Program had not enforced the terms and conditions of the awards
that only allowed reimbursements after the recipients had already disbursed funds. Further, we
were unable to substantiate the allowability of costs totaling $2.1 million to one recipient
because Program officials asserted that the documentation necessary to support the costs had
been lost following an information technology systems crash in 2013. Apparently the supporting
documentation was not properly "backed up" or maintained in the required electronic repository,
factors which contributed to officials' inability to recover the required supporting documentation.

The identified weaknesses in the Program's financial and administrative oversight of recipients
increased the risk that Program officials may not be able to identify recipients that may not have
complied with applicable laws, regulations and award requirements. There is also an increased
risk that recipients will incur unallowable or unnecessary costs.

EERE had begun to take action to address the issues identified during our review. For example,
EERE has implemented new procedures for monitoring compliance with the Department's for-
profit audit requirement, addressing payment restrictions, and establishment of project
milestones through its Strengthening Operations for Accountability and Results reform
initiatives. In addition, according to Program officials all staff have participated in EERE's
Active Project Management Training, which is intended to help ensure effective, efficient and
consistent project management. However, additional actions are needed to further improve
controls over the Program. We made several recommendations that, if implemented, should help
improve controls over the Program.

                                                 2
MANAGEMENT REACTION

Management concurred with the report's recommendations and identified planned actions as well
as actions that had already been completed to address the recommendations.

Management's comments are included in Appendix 2.

Attachment

cc: Deputy Secretary
    Deputy Under Secretary for Science and Energy
    Chief of Staff




                                              3
AUDIT REPORT ON THE DEPARTMENT OF ENERGY'S
WATER POWER PROGRAM


TABLE OF CONTENTS

Audit Report

Details of Finding ............................................................................................................................1

Recommendations ............................................................................................................................7

Management Response and Auditor Comments ..............................................................................8

Appendices

     1. Objective, Scope and Methodology .....................................................................................9

     2. Management Comments ....................................................................................................11
THE DEPARTMENT OF ENERGY'S WATER POWER
PROGRAM

DETAILS OF FINDING
The Department of Energy (Department), Office of Energy Efficiency and Renewable Energy's
(EERE) Water Power Program promotes the development of innovative technologies capable of
generating cost-effective, renewable electricity from water resources. These include marine and
hydrokinetic technologies that harness energy from waves, tides and currents, and conventional
hydropower, which generates power from dams and diversion structures. While the conventional
hydropower industry is notably well established, marine and hydrokinetic technologies are in an
early stage of development. Hydropower produces the largest share of renewable energy by
providing 7 percent of our Nation's electricity. The Program's long-term goal is to supply 15
percent of our electricity needs from water power by 2030.

To accomplish its goals, the Program provides financial assistance awards for research,
development, demonstration, and deployment activities, typically in the form of grants and
cooperative agreements. The Program is tasked with monitoring its recipients' compliance with
Federal regulations and Program guidelines, and measuring project progress and performance.
The Program also performs technical and financial reviews of award applications, as well as pre-
audits to evaluate the capability of applicants to successfully carry out their projects. In addition,
many award recipients are required to provide a percentage of the total project costs and to
disseminate the results of completed projects to the Department.

The Hydropower Program was closed out in Fiscal Year (FY) 2006, but re-established as the
Water Power Program in FY 2008, with a mandate from the Energy Independence and Security
Act of 2007 to expand its activities from conventional hydropower to also include marine and
hydrokinetic renewable energy production. Since its FY 2008 budget of $10 million, the
Program's annual budget has increased to almost $59 million in FY 2012. From June 2008 to
January 2013, the Program provided 105 financial assistance awards totaling $157 million. The
awards ranged from $56,000 to almost $13 million and were given to more than 70 recipients,
including universities, marine engineering firms, and public utilities. Seven of these recipients
received a total of $30.6 million in funding from the American Recovery and Reinvestment Act of
2009 for improvements to conventional hydropower facilities.

Water Power Program Management

We found that the Program had generally implemented controls designed to help enhance its
project management practices by establishing short-term goals, monitoring its recipients on a
regular basis to assess project progress and in some cases, requiring recipients to submit cost
documentation prior to being reimbursed. Moreover, the Program was in the process of
implementing additional procedures to further improve its project management practices. For
example, a new standard operating procedure encourages projects to have milestones that are
specific, measurable, achievable, relevant and timely.

However, we identified several areas in need of improvement. Specifically, the Program had not
ensured for-profit recipients completed and submitted compliance audits as required, and that
payment restrictions were put in place to address weaknesses identified in an accounting system


Details of Finding                                                                           Page 1
audit at one recipient. Additionally, the Program had not ensured that recipients did not maintain
funds in excess of need, and followed the Department's standard invoice submission process.

Audit Compliance

We found that the Program had not always ensured compliance audits of for-profit recipients
were completed and submitted as required, and that payment restrictions were put in place to
address weaknesses identified in an accounting system audit at one recipient.

                                        For-Profit Audits

The Program had not ensured 8 of the 15 for-profit recipients that expended $500,000 or more in
Department funds in at least one fiscal year from 2010 through 2012, had completed and
submitted compliance audits as required by Federal regulations (10 CFR 600.316). Specifically,
the 8 recipients should have completed and submitted 11 compliance audits over a 3-year period.
However, the Program had not received any of the audit reports as of August 2013. The
Department required the audits to determine whether recipients had internal controls in place to
provide reasonable assurance of compliance with Federal regulations and the terms and
conditions of the financial assistance awards.

Compliance with the Department's audit requirement was not enforced because the Program had
not established a process to identify for-profit recipients that expended $500,000 or more in
Department funds in a fiscal year, the threshold for completing compliance audits. As a result,
the Program relied on each recipient to complete and submit the required compliance audits
when expenditure thresholds were met. In addition, EERE officials and some award recipients
told us that they were not clear on how to comply with the Department's audit requirement. We
identified similar concerns that compliance audits were not being obtained or reviewed by the
Department in our audit report Solar Technology Pathway Partnerships Cooperative Agreements
(OAS-M-11-02, March 2011). In response to this previous report, the Department had updated
its Federal Assistance Reporting Checklist and Guide to Financial Assistance to include the for-
profit audit requirement.

By not enforcing audit compliance, the Program cannot be assured that recipients had internal
controls in place to ensure compliance with Federal regulations and the terms and conditions of
their awards. As a result of our audit, Program officials told us they had notified the eight for-
profit recipients of their noncompliance with the requirement. Subsequently, for four recipients,
the Program waived the audit requirement for previous years, pending the results of more recent
compliance audits, or granted additional time to complete the audits.

After we brought this issue to their attention, EERE officials reported that they are now tracking
recipients' compliance with the Department's for-profit audit requirement. In addition, EERE
reported that it will establish a process to notify recipients when audit reports are due and follow-
up with recipients when audit reports are delinquent. These processes are expected to be
implemented no later than March 2015 and July 2014, respectively.




Details of Finding                                                                          Page 2
                                  Accounting System Audit

We found that mitigating actions were not taken to address weaknesses identified in an
accounting system audit conducted for one recipient we reviewed. To help ensure compliance
with the Department's standards for financial management systems (10 CFR 600.311), the
Program can request an audit to evaluate the adequacy of a recipient's accounting system. In
February 2010, a recipient received two awards that did not contain any payment restrictions;
allowing the recipient to draw down funds without the Program's pre-approval. About 8 months
later, an October 2010 accounting system audit revealed multiple accounting system
deficiencies, such as the recipient's inability to identify and separate unallowable costs. To its
credit, after considering the extent of these deficiencies, the Program categorized a subsequent
award as "at-risk" and required the recipient to obtain pre-approval before reimbursements were
made. However, the Program did not modify the terms and conditions of the previously
negotiated awards to apply these same payment restrictions. As a result, the Program assumed a
higher risk of unallowable costs being submitted by the recipient.

We noted that the Program did not have a process in place to modify the payment terms and
conditions of previously negotiated awards when accounting system weaknesses were
subsequently identified after a more recent award was made. However, as part of EERE's new
standard operating procedure for competitive Funding Opportunity Announcements, all future
awards will contain the same payment terms, which will require pre-approval for all
reimbursement requests for for-profit recipients. In addition, EERE officials noted that they now
conduct "kickoff" webinars with new recipients to address their financial responsibilities,
including accounting and audit requirements, and unallowable costs.

Funds Management

We found that the Program had not always ensured that recipients managed project funds
according to Federal regulations and/or the terms and conditions of their awards. Specifically,
we found that the Program had not always ensured recipients did not maintain funds in excess of
need and followed the Department's standard invoice submission process.

                                    Funds Disbursement

We found that one recipient received cash advances totaling $209,717, but had not disbursed the
funds more than 10 months later. The recipient had received the advances despite the terms and
conditions of its award that allowed reimbursements only after the recipient had already
disbursed funds. The recipient indicated that it had requested the reimbursements based on
Federal regulations (10 CFR 600.312) that allowed reimbursements for costs incurred, based on
accruals. However, EERE officials told us that the reimbursement conditions specifically
outlined in the recipient's award terms and conditions took precedence. The Program later
modified its position and reported that the terms and conditions were incorrect, and that
payments should be based on immediate disbursement needs. The Program is planning to revise
the terms and conditions accordingly.




Details of Finding                                                                         Page 3
This potential revision to the terms and conditions is similar to the cited regulations that required
when recipients do receive advances, they should minimize the time elapsed between the receipt
and disbursement of advanced funds. Specifically, the regulations state that cash advances
should be as close to administratively feasible to the recipient's disbursement of the funds for
Program purposes. However, since the recipient maintained excess funds for more than 10
months, an immediate disbursement need was not apparent.

As a result of our audit, the recipient identified an error that had resulted in its receiving
approximately $62,193 for costs that had been double-billed by its contractor and reimbursed by
the Program. The error occurred prior to October 2012, but was not identified until we initiated
our audit almost 8 months later. Had the recipient timed its receipt of the funds concurrent with
its actual disbursements, as required by the terms and conditions of its award, then it may have
identified the discrepancy more timely. After we brought the $209,717 in advanced payments to
its attention, the Program resolved the issue by permitting the recipient to offset the double-
billing of $62,193 against other allowable expenditures and disburse the remaining $147,524 to
one of its contractors.

The recipient failed to disburse the advances in a timely manner for a number of reasons. For
example, the recipient stated that its contractor failed to submit invoices for work it had
completed. In addition, according to the recipient, the Department permitted payments based on
costs incurred even though EERE officials acknowledged that the terms and conditions
disallowed this practice. Further, we found that the Program had not required the recipient to
submit detailed supporting documentation to justify its payment requests, which may have
identified the advances. However, to improve financial monitoring, EERE officials reported that
they will be implementing several new processes, including an enhanced invoice documentation
requirement for reimbursement requests.

Similarly, a September 2012 independent audit found that another Program recipient allowed 3
to 9 months to elapse between the receipt of Program funds and the disbursement of those funds
to its vendors. As a result of that audit, Program officials required that recipient to ensure vendor
disbursements were to be made within 5 business days of the receipt of Program funds.

                                      Unsupported Costs

We found that the Program was unable to provide documentation to substantiate approximately
$2.1 million in costs to one recipient. Due to multiple weaknesses identified in the recipient's
accounting system and concerns over its financial capability, the Program required
reimbursement requests to be submitted through the Automated Clearing House vendor payment
system, the Department's reimbursement system when supporting documentation is required. In
addition, the terms and conditions provided that only verifiable costs, such as equipment and
sub-contractual costs that could be demonstrated through invoicing and voucher would be
approved for payment. Program officials asserted that the documentation necessary to support
the costs, which was provided via email, had been stored electronically in a commonly-used
document management system. However, following an information technology systems crash in
early 2013, which the Program asserted was beyond its control, most of the documents stored in
that system were lost, including the documentation necessary to support the $2.1 million in costs,



Details of Finding                                                                           Page 4
about half of which was reimbursed by the Program and the other half paid by the recipient as
cost share. Program officials stated that after the system crash, they attempted to recreate the
documentation by searching old emails, however, they were unable to do so.

A review of the information technology systems controls associated with the document
management system was outside the scope of our audit. However, it appeared that the
supporting documentation was not properly "backed up" or maintained in the required electronic
repository, factors which contributed to officials' inability to recover the required supporting
documentation. Because the recipient was no longer in business due to financial constraints, the
Program may be unable to obtain supporting documentation for these costs, or recoup Program
funds if unallowable costs were ultimately identified. However, in response to our audit,
Program officials reported that high-risk for-profit recipients are now required to submit
supporting documentation through the Automated Clearing House vendor payment system.

In addition to the lack of supporting documentation, we found that the Program continued to
reimburse the same recipient more than $750,000 over a 6-month period, even though initial
project objectives had not been met. Program officials stated that the recipient was making
progress towards meeting project objectives, but generally, because projects did not always have
quantifiable goals and metrics, measuring project progress was more subjective. However,
EERE's new Standard Operating Procedure encourages projects to have milestones that are
specific, measurable, achievable, relevant, and timely. Also, all projects greater than 1 year in
length will be subject to an annual stage-gate (go/no-go) decision.

Further, at another recipient, we found minor amounts of potentially unallowable travel costs that
we brought to management's attention. Program officials reported that EERE is in the process of
establishing a Central Invoice Review Unit to ensure consistent and rigorous review of
recipients' future reimbursement requests.

Subsequent Event

The Program informed us that it had mutually agreed with one of the recipients we selected for
testing to terminate one of its awards. Program officials stated that the termination was
considered the best alternative due to increased costs related to the project and the recipient's
inability to obtain additional financing. At the time of termination, the recipient had spent
approximately $1.2 million of the $2.4 million obligated to the project.

Impact and Path Forward

The identified weaknesses in financial and administrative oversight of recipients increased the
risk that Program officials may not be able to identify recipients that have not complied with
applicable laws, regulations, and award requirements. There is also an increased risk that
recipients will incur unallowable or unnecessary costs.

EERE had begun to take action to address the issues identified during our review. For example,
EERE had implemented new procedures for monitoring compliance with the Department's for-
profit audit requirement, addressing payment restrictions, and establishment of project



Details of Finding                                                                         Page 5
milestones through its Strengthening Operations for Accountability and Results reform
initiatives. In addition, according to Program officials, all staff have participated in EERE's
Active Project Management Training, which is designed to help ensure effective, efficient, and
consistent project management. However, additional actions are needed to further improve
controls over the Program.




Details of Finding                                                                       Page 6
RECOMMENDATIONS
We recommend the Assistant Secretary for EERE direct the Water Power Program Manager to:

    1. Identify the for-profit recipients that have expended $500,000 or more in Department
       funds in a fiscal year to ensure audit reports are completed and submitted in compliance
       with Federal regulations 10 CFR 600.316;

    2. Ensure recipients understand and comply with the award terms and conditions relating to
       for-profit audit compliance and payment requirements, such as in instances where
       Program funds are to be provided based on reimbursement rather than costs incurred;

    3. Require for-profit recipients to submit supporting documents for reimbursement requests
       through the Automated Clearing House vendor payment system to ensure there is a
       complete set of official records; and

    4. Incorporate new EERE standard operating procedures to encourage project milestones
       that are specific, measurable, achievable, relevant and timely.




Recommendations                                                                         Page 7
MANAGEMENT RESPONSE
Management concurred with our recommendations and identified planned actions as well as
actions that had already been completed to address the recommendations. For example,
management indicated that it is currently tracking for-profit audits to ensure compliance with 10
CFR 600.316. In addition, management stated that it has begun implementing several new
Standard Operating Procedures and processes to enhance financial and project monitoring.
Finally, management is establishing a Central Invoice Review Unit to review all reimbursement
requests submitted by high-risk recipients and ensure that complete supporting documentation is
provided with each submittal.

Additionally, management stated it would require project management plans for larger, more
complex projects and that it would use cooperative agreements to fund new awards where the
Department project manager would have substantial involvement in the management of the
project.

Management's comments are included in Appendix 2.

AUDITOR COMMENTS
Management's corrective actions are responsive to our recommendations.




Management Response and Auditor Comments                                                  Page 8
                                                                              APPENDIX 1

                  OBJECTIVE, SCOPE AND METHODOLOGY
Objective

The objective of the audit was to determine whether the Department of Energy's (Department)
Water Power Program was efficiently and effectively managed.

Scope

The audit was conducted between March 2013 and June 2014, at the Department's Golden
Service Center in Golden, Colorado, and three grant recipient locations. Our audit included an
evaluation of the management and performance of the Program and a review of the oversight and
monitoring of financial assistance agreements. We also performed a limited desk review for a
sample of other Program recipients. The audit was conducted under Office of Inspector General
Project Number A13RA004.

Methodology

To accomplish our objective, we:

    •   Interviewed key Program officials and award recipients.

    •   Reviewed and evaluated applicable laws, regulations, policies and procedures,
        pertaining to Program grant-related activities.

    •   Evaluated the Program's progress towards meeting its performance goals and objectives.

    •   Selected three recipients for detailed reviews. These recipients received eight awards for
        in aggregate of nearly $19 million, with total project costs exceeding $52 million. The
        three recipients were judgmentally selected from a universe of 71 recipients and 105
        awards totaling $157 million. We narrowed the recipient universe by considering high-
        dollar awards with a significant amount of expenditures. In addition, we selected
        recipients that received awards for both conventional hydropower, and marine and
        hydrokinetic projects. For the three recipients, we evaluated the following: budget,
        schedule and performance, award justification, procurement, earned interest and
        Program income, timeliness, justification, and adequacy of supporting documentation
        for payments, cost share contributions, goals and milestones, sub-recipient monitoring
        and project oversight, and compliance with laws, regulations, policies and procedures.

    •   Reviewed 18 invoices from the three recipients totaling slightly more than $2 million to
        review cost allowability and reasonableness. The invoice dates ranged from June 2010
        through March 2013, and were judgmentally selected based on total dollar amount,
        coverage of all six awards, and to include various cost categories. However, because
        our sample was not statistical, we could not project the sample results to the population
        of financial transactions.



Objective, Scope and Methodology                                                          Page 9
                                                                                APPENDIX 1

    •   Conducted field site visits to the three recipients where we interviewed key personnel;
        reviewed and analyzed supporting documentation, including invoices, sub-contract
        agreements, purchase orders, and requests for payments; and obtained an overview of
        the projects and evaluated the performance of the awards.

    •   Selected 22 recipients that received 32 awards to evaluate project delays. For this
        analysis we selected the three recipients that were chosen for detailed reviews (above),
        and judgmentally selected 19 recipients based on project information obtained during
        the course of our audit and by project type: conventional hydropower, and marine and
        hydrokinetic projects.

    •   Judgmentally selected three other recipients for limited reviews (e.g. cost share,
        adequacy of supporting documentation for reimbursements, and timeliness of funds
        disbursement) based on discussions with Department personnel and auditor discretion.

We did not use statistical samples during the course of this audit; as a result, we could not project
the results of our analyses to the population.

We conducted this performance audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe the evidence obtained provides a reasonable basis for
our conclusions based on our audit objective. Accordingly, the audit included tests of controls
and compliance with laws and regulations to the extent necessary to satisfy the objective. In
particular, we assessed the implementation of the GPRA Modernization Act of 2010 as it relates
to the audit objective and found that the Department had established performance measures
related to the Program. Because our review was limited, it would not necessarily have disclosed
all internal control deficiencies that may have existed at the time of our audit. We did not rely on
computer-processed data to accomplish our audit objective.

Management waived an exit conference.




Objective, Scope and Methodology                                                           Page 10
                                            APPENDIX 2

                      MANAGEMENT COMMENTS




Management Comments                              Page 11
                      APPENDIX 2




Management Comments        Page 12
                                        FEEDBACK
The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We aim to make our reports as responsive as possible and ask you to consider sharing
your thoughts with us.

Please send your comments, suggestions and feedback to OIGReports@hq.doe.gov and include
your name, contact information and the report number. Comments may also be mailed to:

                              Office of Inspector General (IG-12)
                                     Department of Energy
                                    Washington, DC 20585

If you want to discuss this report or your comments with a member of the Office of Inspector
General staff, please contact our office at (202) 253-2162.
